Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




   MASSACHUSETTS MEDICAID
PAYMENTS TO WEYMOUTH HEALTH
 CARE CENTER DID NOT ALWAYS
COMPLY WITH FEDERAL AND STATE
        REQUIREMENTS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                 Michael J. Armstrong
                                               Regional Inspector General

                                                      January 2013
                                                      A-01-12-00016
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies. The State agency
reimburses nursing homes based on an established per diem rate for services provided to
Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must use certain
additional resources that a beneficiary has, including Social Security payments, to reduce
Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary’s contribution during the financial eligibility process and enters this amount into its
computer system. The beneficiary’s contribution is remitted to the nursing home each month.

When the State agency reimburses the nursing home and does not reduce the Medicaid per diem
payment to the nursing home by the amount of the beneficiary’s contribution, the nursing home
could receive overpayments. Pursuant to Medicaid requirements, the nursing home must return
any overpayments to the State Medicaid program, which in turn is required to refund the Federal
share to the Centers for Medicare & Medicaid Services on its Form CMS-64, Quarterly
Statement of Expenditures for the Medical Assistance Program.

Weymouth Health Care Center (Weymouth) is a Massachusetts certified Medicare and Medicaid
nursing home located in Weymouth, Massachusetts.

OBJECTIVE

Our objective was to determine whether the State agency made Medicaid payments to
Weymouth in accordance with Federal and State requirements from January 2010 through April
2012.

SUMMARY OF FINDING

Massachusetts Medicaid payments to Weymouth did not always comply with Federal and State
requirements. The State agency did not always adjust its Medicaid per diem payments to
Weymouth by the amount of beneficiaries’ cost-of-care contributions from resources, such as
Social Security and pensions. As a result, the State agency’s Federal claim was overstated by a
total of $87,983 ($48,151 Federal share). We attributed the incorrect Medicaid payments to
clerical and billing errors.

RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $87,983 from Weymouth and refund the Federal share of
       $48,151 and



                                              i
   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

WEYMOUTH HEALTH CARE CENTER COMMENTS

In written comments on our draft report, Weymouth agreed with our finding. Weymouth’s
comments are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our finding. The State
agency’s comments are included in their entirety as Appendix C.




                                            ii
                                                  TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................1
               Objective ..................................................................................................1
               Scope ........................................................................................................1
               Methodology ............................................................................................2

FINDING AND RECOMMENDATIONS ...................................................................2

          FEDERAL AND STATE MEDICAID REQUIREMENTS................................2

          UNADJUSTED NURSING HOME PAYMENTS ............................................3

          AMOUNT OWED TO THE FEDERAL GOVERNMENT ................................3

          CAUSE OF UNREPORTED OVERPAYMENTS .............................................3

          RECOMMENDATIONS .....................................................................................3

          WEYMOUTH HEALTH CARE COMMENTS .................................................3

          STATE AGENCY COMMENTS………………………………………………4

APPENDIX

          A. MEDICAID OVERPAYMENTS TO WEYMOUTH HEALTH CARE
             CENTER BY CALENDAR YEAR

          B. WEYMOUTH HEALTH CARE CENTER COMMENTS

          C. STATE AGENCY COMMENTS




                                                               iii
                                       INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. The
Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies.

The State agency reimburses nursing homes based on an established per diem rate for services
provided to Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must
use certain additional resources that a beneficiary has, including Social Security payments, to
reduce its Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary’s contribution to the cost of care during the financial eligibility process and enters
this amount into its computer system. The beneficiary’s cost-of-care contribution is remitted to
the nursing home each month.

When the State agency does not reduce the Medicaid per diem payment to the nursing home by
the amount of the beneficiary’s contribution, the nursing home could receive overpayments.
Pursuant to Medicaid requirements, the nursing home must return the overpayments to the State
Medicaid program, which in turn is required to refund the Federal share to CMS on its Form
CMS-64, Quarterly Statement of Expenditures for the Medical Assistance Program.

Weymouth Health Care Center (Weymouth) is a Massachusetts certified Medicare and Medicaid
nursing home located in Weymouth, Massachusetts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency made Medicaid payments to
Weymouth in accordance with Federal and State requirements from January 2010 through April
2012.

Scope

For the period January 2010 through April 2012, we reviewed Medicaid accounts that were at
risk for having overpayments. We limited our review of internal controls to obtaining an
understanding of Weymouth’s procedures for reviewing accounts and reporting overpayments to
the Medicaid program.




                                             1
We performed fieldwork from August through October 2012 at Weymouth in Weymouth,
Massachusetts; the State agency in Boston, Massachusetts; and the CMS Regional Office in
Boston, Massachusetts.

Methodology

To accomplish our objective, we:

   •   reviewed State and Federal regulations pertaining to overpayments,

   •   worked with Weymouth officials to identify credit balances in the accounting records that
       were potentially overpayments,

   •   reviewed patient accounts to determine whether overpayments had occurred,

   •   determined the cause of the overpayments, and

   •   coordinated our audit with officials from the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

Massachusetts Medicaid payments to Weymouth did not always comply with Federal and State
requirements. The State agency did not always adjust its Medicaid per diem payments to
Weymouth by the amount of beneficiaries’ cost-of-care contributions from resources, such as
Social Security and pensions. As a result, the State agency’s Federal claim was overstated by a
total of $87,983 ($48,151 Federal share). We attributed the incorrect Medicaid payments to
clerical and billing errors.

FEDERAL AND STATE MEDICAID REQUIREMENTS

Pursuant to 42 CFR § 435, the State agency must reduce its payment to an institution for services
provided to a Medicaid-eligible individual by the amount that remains after adjusting the
individual’s total income for a personal needs allowance and other considerations that the
regulation specifies. MassHealth regulations at 450.316 note that all resources available to a
member, including but not limited to health and casualty insurance, must be coordinated and
applied to the cost of medical services provided by MassHealth.




                                            2
UNADJUSTED NURSING HOME PAYMENTS

The State agency made 94 overpayments to Weymouth from January 2010 through April 2012
(see Appendix A). Specifically, the State agency did not adjust its Medicaid payments to
Weymouth by the amount of beneficiaries’ cost-of-care contributions from resources, such as
Social Security and pensions.

               An Example of a Medicaid Overpayment for One Beneficiary

   Mr. B was a patient at Weymouth during May 2011. Based on his other resources, the
   State agency calculated Mr. B’s cost-of-care contribution to be $1,300 a month. The State
   agency determined that the nursing home was entitled to a monthly payment of $6,200.
   Because of Mr. B’s $1,300 cost-of-care contribution, the State agency was responsible for
   only $4,900 of the $6,200 nursing home costs. However, the nursing home received a total
   of $7,500 ($6,200 from the State agency and $1,300 from Mr. B), because the State
   agency’s computer system did not adjust the payment amount to take into consideration
   Mr. B’s cost-of-care contribution. Thus, the nursing home received an overpayment of
   $1,300 ($7,500 minus $6,200) for Mr. B’s care for the month of May.

AMOUNT OWED TO THE FEDERAL GOVERNMENT

As a result of the overpayments, the State agency’s Federal claim for Medicaid payments made
to Weymouth for the period January 2010 through April 2012 was overstated by a total of
$87,983 ($48,151 Federal share).

CAUSE OF UNREPORTED OVERPAYMENTS

We attributed the 94 incorrectly reimbursed Medicaid payments to clerical and billing errors.
State agency officials informed us that they have recently implemented a new computer system
that will reduce future clerical and billing errors.

RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $87,983 from Weymouth and refund the Federal share of
       $48,151 and

   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

WEYMOUTH HEALTH CARE CENTER COMMENTS

In written comments on our draft report, Weymouth agreed with our finding. Weymouth’s
comments are included in their entirety as Appendix B.


                                            3
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our finding. The State
agency’s comments are included in their entirety as Appendix C.




                                            4
APPENDIXES
APPENDIX A: MEDICAID OVERPAYMENTS TO WEYMOUTH HEALTH CARE
                  CENTER BY CALENDAR YEAR




          Calendar     Number of         Total
           Year       Overpayments   Overpayments

            2010           26           16,604


            2011           46           49,032

            2012           22           22,347


           TOTAL           94          $87,983
                 APPENDIX B: WEYMOUTH HEALTH CARE CENTER COMMENTS 



64 Performance Drive
Weymouth, MA 02189                                                                              .     781.340.9800
                                                                                                    Fax 781.340.1771
                                             Health Care Center




          November 27, 2012


          Report Number: A-01-1200016

          Michael J. Armstrong 

          Regional Inspector General for Audit Services 

          Office of Inspector General 

          Office of Audit Services, Region I 

          JFK Federal Building 

          15 New Sudbury, Room 2425 

         ·Boston, MA 02203


          Dear Mr. Armstrong;

          We are in agreement with yoUr fmdings relate.d to the $87,983 in total overpayments for a
          calendar 2008-2012.

                                                                •
         Thank. you .

      . . ,cerely,
    <...'---.. - ~         ~  . -
          lames Keane, 

              Administrator 

                                   APPENDIX C: STATE AGENCY COMMENTS 




                                 The Commonwealth of Massachusetts
                             Executive Office ofHealth and Human Services
                                            Office of Medicaid
                                         ·One Ashburton Place
                                           Boston, MA 02108                                             JUDYA.~N    BIGBY, M.D.
 DEVALL. PATRICK
                                                                                                                 Secretary
    Governor

TIMOTHY P . MURRAY                                                                                     JULIAN J. HARRIS, M.D .
 Lieutenant Governor                                                                                      Medicaid Director



         December 21, 2012

         Michael J. Armstrong
         Regional Inspector General, Audit Services
         HHS/OIG/OAS
         Region I
         JFK Federal Building
         Boston, MA 02203

         RE: Audit Report No: A-01-12-00016

         Dear Mr. Armstrong:

         Thank you for the opportunity to review and comment on Draft Audit Report No: A-01-12-00016
         "Massachusetts Medicaid Payments to Weymouth Health Care Center Did Not Always Comply with
         Federal and State Requirements" .

         Our responses to the report's specific recommendations are as follows:
          Recommendation:
        . 1) Collect overpayments totaling $87,983 from Weymouth and refund $48, 151,· the Federal share of
             these payments, to CMS on the next quarterly CMS-64.

         Response: We are in agreement with this finding anG.will follow the procedures described in state
         Medicaid regulations at 130 CMR 450.237 to collect the overpayments from the provider. Under 130
         CMR 450.237, the provider has a due process right to contest the overpayment. including the right to
         request an adjudicatory hearing and judicial review.

         Mass Health will need the OIGs working papers identifying the specific claims in order to undertake
         collection of the overpayments, notify Weymouth and if required, defen(i the overpaYJl1ent amounts
         should Weymouth contest the overpayment notice. If Weymouth does not contest the overpayment
         collection or does not prevail in contesting this overpayment, MassHealth will ensure that the EOHHS'
         Federal Revenue Unit will return the Federal share on the appropriate CMS~4 .

         Recommendation:
         2) Continue agency efforts to ensure that Medicaid overpayments to nursing homes continue to be
            identified, collected and refunded.

         Response: Mass Health is in agreement with this recommendation and will ensure that periodic reviews
         and audits continue to be conducted to identify, collect and refund overpayments.

         Sincerely,~

         Julian Ha~isC.A.,
         Medicaid Director
                                    M.Sc.
